HHS/OIG, Audit - "Review of Medicare Contractor's Pension Segmentation Requirements
at Blue Cross Blue Shield of Arizona for the Period January 1, 1991, to January 1, 2005," (A-07-06-00207)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension
Segmentation Requirements at Blue Cross Blue Shield of Arizona for the Period January 1,
1991, to January 1, 2005," (A-07-06-00207)
August 31, 2006
Complete
Text of Report is available in PDF format (341 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to determine if Arizona complied with the Medicare contracts pension
segmentation requirements while: (1) implementing the prior audit findings, and (2)
updating the Medicare segments assets from January 1, 1991, to January 1, 2005.  We
found that Arizona did not correctly adjust the beginning market value of assets or comply
with the Medicare contracts pension segmentation requirements when updating the segments
assets from January 1, 1991, to January 1, 2005.  As a result, Arizona overstated the
January 1, 2005, Medicare segment assets by $6,070.  We recommended that Arizona decrease
Medicare segment pension assets by $6,070 as of January 1, 2005.
Arizona agreed with our recommendation.